2311 Douglas Street CA * E-Mail Address:
s
Omaha, Nebraska 68102-1214 Le ga 1B riefs contact@cockielegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

HENRIETA PISZTORA, MARY ALICE STURM
AND STEPHEN W. STURM, husband and wife,
GREGORY J. WALSH AND MARIANNE B. WALSH,
husband and wife,
Petitioners,

VS.
CITY OF PITTSBURGH and BETH CRONIN,
Respondents.

AFFIDAVIT OF SERVICE

J, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the [1th day of September, 2020, send
out from Omaha, NE 3 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DEBORAH R. ERBSTEIN, ESQUIRE
derbstein@gkgattorneys.com
Counsel of Record
DAVID A. WOLF, ESQUIRE
davidw@gkgattorneys.com
GOLDBERG, KAMIN & GARVIN, LLP
1806 FRICK BUILDING
PITTSBURGH, PA 15219
(412) 281-1119

Subscribed and sworn to before me this | Ith day of September, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL HOTARY-State of Hebrasha & 2 b j,
RENEE J. GOSS 9. ( dears ‘
ity Comm. Exp. September §, 2023

Notary Public Affiant 40136

   
 

 

   
Lawrence H. Baumiller, Esquire

City of Pittsburgh Dept. of Law

Room 327-G

City-County Building

Pittsburgh, PA 15219

P — 412-255-2002

lawrence. baumiller@pittsburghpa.gov
Counsel for the City of Pittsburgh

Pennsylvania Office of Attorney General

Josh Shapiro, Esquire

16th Floor, Strawberry Square

Harrisburg, PA 17120

P - 717-787-3391
jshapiro@attorneygeneral.gov

Counsel for the Commonwealth of Pennsylvania

Ms. Beth Cronin

4136 Winterburn Avenue
Pittsburgh, PA 15207

P - 412-952-0602

Pro Se
